<html>
<title> - [H.A.S.C. No. 111-66]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2010 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED  ELEVENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-66]
======================================================================

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2010

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE HEARING

                                   ON

                     BUDGET REQUEST FOR DEPARTMENT

                         OF DEFENSE SCIENCE AND

                          TECHNOLOGY PROGRAMS

                               __________

                              HEARING HELD
                              MAY 20, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
57-053                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman

MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
JIM COOPER, Tennessee                BILL SHUSTER, Pennsylvania
JIM MARSHALL, Georgia                K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              THOMAS J. ROONEY, Florida
PATRICK J. MURPHY, Pennsylvania      MAC THORNBERRY, Texas
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
                 Tim McClees, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, May 20, 2009, Fiscal Year 2010 National Defense 
  Authorization Act--Budget Request for Department of Defense 
  Science and Technology Programs................................     1

Appendix:

Wednesday, May 20, 2009..........................................    29
                              ----------                              

                        WEDNESDAY, MAY 20, 2009
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
         DEPARTMENT OF DEFENSE SCIENCE AND TECHNOLOGY PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Miller, Hon. Jeff, a Representative from Florida, Ranking Member, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     2
Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1

                               WITNESSES

Carr, Rear Adm. Nevin, Jr., USN, Chief of Naval Research, 
  Director, Test and Evaluation and Technology Requirements, U.S. 
  Navy...........................................................     6
Jaggers, Terry, Deputy Assistant Secretary of the Air Force for 
  Science, Technology and Engineering, Office of the Assistant 
  Secretary for Acquisition, U.S. Air Force......................     8
Killion, Dr. Thomas, Deputy Assistant Secretary of the Army for 
  Research and Technology, U.S. Army.............................     5
Leheny, Dr. Robert, Acting Director, Defense Advanced Research 
  Projects Agency, Office of the Secretary of Defense............    10
Shaffer, Alan, Principal Deputy Director, Defense Research and 
  Engineering, Office of the Secretary of Defense................     3

                                APPENDIX

Prepared Statements:

    Carr, Rear Adm. Nevin, Jr....................................    78
    Jaggers, Terry...............................................    94
    Killion, Dr. Thomas..........................................    69
    Leheny, Dr. Robert...........................................   105
    Miller, Hon. Jeff............................................    34
    Shaffer, Alan................................................    35
    Smith, Hon. Adam.............................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
         DEPARTMENT OF DEFENSE SCIENCE AND TECHNOLOGY PROGRAMS

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                           Washington, DC, Wednesday, May 20, 2009.
    The subcommittee met, pursuant to call, 10:33 a.m., in room 
2212, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. Call the meeting to order. Thank you all very 
much for being here this morning. This morning we are going to 
talk about the Department of Defense Science and Technology 
(DOD)(S&T) programs and the administration's priorities for the 
S&T budget as reflected in their request this year. I will have 
a brief opening statement and we will also have a statement 
that, without objection, I will submit for the record.
    I just want to welcome all of our witnesses here today to 
talk about this very important subject. This is going to be a 
very interesting budget year for the DOD on a wide variety of 
programs. Certainly we have heard about some of the big ticket 
items. But this has implications throughout the budget in terms 
of how we set our priorities and science and technology will be 
no exception. As we figure out where to do our research, what 
our priorities should be on how to spend the money, our overall 
priorities within the DOD budget are going to be critical to 
assessing that. And all of the gentlemen here today are going 
to be critical players in making those decisions and moving 
forward.
    In general, I want to say that I feel our research and 
development in science and technology areas has done quite 
well. The best thing they have done in the last couple of years 
has been responsive to the battlefield needs. We would all like 
to have long-term planning and we are still doing that. There 
has been I believe a perfectly logical and reasonable shift in 
focus since 9/11 to what we need in Iraq and Afghanistan. And 
that help, I think, has been critical to the warfighters in 
term of meeting their challenges by providing them with the 
technological advances they need.
    In many, many areas of particular note is the significant 
improvement in the quality of medical care. You know both in 
terms of battlefield survivability, the various treatments that 
are now available and those seriously wounded, some of the 
advances in prosthetics and other care that has really improved 
the quality of life for our men and women who have been injured 
out there. And a lot of that has to do with the investments 
made within Research and Development (R&D) and science and 
technology. Certainly there are many other areas where we have 
made those improvements.
    In the balance that we try to strike going forward, just to 
make sure that we meet those battlefield needs and also look 
down the road, which was one of the main purposes of research 
and development off the bat and to see what our challenges are 
going to be in the future and to improve technology in those 
areas and to put us in the best position to meet them, to make 
those investments early on.
    So I look forward to hearing from our witnesses. And with 
that, I turn it over to the ranking member. Mr. Miller for any 
opening comments he might have.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 33.]

 STATEMENT OF HON. JEFF MILLER, A REPRESENTATIVE FROM FLORIDA, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Miller. Thank you, Mr. Chairman. I do have an opening 
statement that I would like to submit for the record but I have 
a couple of comments I would like to make as well.
    Mr. Smith. Yes.
    Mr. Miller. Thank you, gentlemen, for being here today. It 
was April 6th that Secretary Gates had a press conference where 
he gave us our first and really only glimpse at this time into 
the significant investments that he was proposing to the 
President that would later be reflected in the fiscal year 2010 
budget request. We have got a lot of questions for the 
Secretary and the Department that will be coming out over the 
next couple of weeks. I feel our job is complicated by the fact 
that we only have fiscal year 2010 figures to work with, and we 
have been told that future programmatic decisions will be based 
on the outcome of the 2010 Quadrennial Defense Review (QDR) 
with some significant budgetary moves found in the fiscal 2010 
budget.
    I think everybody agrees that we have to get this right, 
you know. This year's budget shows an overall decrease in the 
research and development testing, engineering accounts from a 
previous year. I think it was back in 2009 there was a four 
percent increase. As I was going to say, if we don't get it 
right or we don't provide sufficient funding for research and 
development our forces could find themselves without much 
needed capabilities.
    I look forward to you gentlemen addressing these issues and 
answering the questions we have for you today.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 34.]
    Mr. Smith. Thank you very much, Mr. Miller. I will 
introduce all of the witnesses and we will take you from left 
to right. We always strive for between 5- and 10-minute opening 
statements. There are five of you, but I want to make sure that 
you get plenty of time to say what you have come to say. So 
please feel free to use that time.
    We are joined first of all by Mr. Alan Shaffer who is the 
Principal Deputy Director for Defense Research and Engineering 
(DRE) at the Department of Defense; Dr. Thomas Killion, Deputy 
Assistant Secretary of Army for Research and Technology, good 
to see you again; Rear Admiral Nevin Carr, Chief of Naval 
Research. I thank you in particular for being here this 
morning, I know you had very significant family health care 
problem this past week and I appreciate you being with us here.
    We also have Mr. Terry Jaggers, who is the Deputy 
Assistant--you get the prize for the longest title, Deputy 
Assistant Secretary of the Air Force for Science, Technology & 
Engineering at the Office of the Assistant Secretary for 
Acquisition for the Air Force, good to see you. And Dr. Robert 
Leheny, acting director for the Defense Advanced Research 
Projects Agency, better known as DARPA. Welcome, and I should 
make a note that we miss Mr. Tether, appreciate his long 
service.
    Dr. Leheny. Not as much as I do.
    Mr. Smith. I know, it doesn't seem right doing this without 
him, but I am sure you will fill in ably.
    Mr. Shaffer.

 STATEMENT OF ALAN SHAFFER, PRINCIPAL DEPUTY DIRECTOR, DEFENSE 
  RESEARCH AND ENGINEERING, OFFICE OF THE SECRETARY OF DEFENSE

    Mr. Shaffer. Good morning, Chairman Smith, Ranking Member 
Miller, I ask that my written testimony be entered into the 
record. I am pleased to be here today on behalf of the nearly 
100,000 Department of Defense science and technology men and 
women who strive to discover, develop, mature and field the 
best possible technologies at an affordable price for the 
soldiers, sailors, airmen, Marines and civilians deployed in 
defense of our Nation.
    To meet this challenge requires us to develop the best we 
can from our DOD laboratories and to partner with all elements 
of the national science and technology infrastructure: 
Academia, industry, small business and other federal agencies. 
Delivering the best possible technology is a complex and 
multifaceted effort. It is my honor today to show that we are 
making progress toward this challenge. This is an exciting time 
to be in the Department of Defense S&T. For the third straight 
year we submitted a President's budget request that conveys 
substantial change driven by the shift in national security 
priorities in response to our current irregular warfare 
engagement.
    Counterinsurgency warfare requires us to expand our 
capabilities in diverse areas such as persistent surveillance, 
protection technologies, cultural and social modeling and other 
non-kinetic capabilities, while maintaining adequate 
conventional operational capabilities at the same time. We have 
realigned well over 10 percent of the science and technology 
investment over the last three budget requests.
    This year's budget submission was guided by four strategic 
principles. The first basic research was articulated by 
Secretary Gates in his fiscal year 2009 budget posture hearing. 
The other three were highlighted by the Secretary in his April 
6th speech which laid out the budget priorities for the 
Department of Defense. They are: Taking care of our people, 
developing the capabilities to fight the current and future 
wars, and improving our acquisition capabilities and 
accountability.
    The S&T budget submission we are discussing today addresses 
all of these priorities and more. Building upon our budget 
request for the past several years and aligns our investment to 
irregular warfare challenges.
    The S&T Fiscal Year 2010 President's budget request of 
$11.6 billion represents a strong continued commitment to S&T. 
Specifically this year's request came within one half of a 
percent of maintaining real growth compared to 2009, and the 
combined real growth of the S&T budget request from fiscal year 
2008 to 2010 is about 4 percent growth.
    Fiscal year 2010 continues the trend of moving investment 
from kinetic to non-kinetic capabilities. It includes a number 
of areas of increased emphasis. Medical research and 
development which increases nearly $500 million for combat 
casualty care and mitigation rehabilitation of traumatic brain 
injury, post-traumatic stress disorder and other combat related 
injuries.
    Expanded cyber protection, which increases the DOD in 
investment by about $50 million a year to fund information 
assurance science and technology for intrusion prevention and 
detection. Expanded antitamper technology, which increases 
efforts and vulnerability assessments of our platforms and 
development of new technologies to improve antitamper 
capabilities.
    Stand-off detection of fissile materials which increases 
our investment to improve remote detection capabilities of 
weapons of mass destruction. Large data handling capabilities 
starts a new science and technology program to improve our 
capacity to handle large and increasing amounts of information 
supporting current and emerging warfighter requirements.
    In his April 6th speech, Secretary Gates cited his first 
priority as taking care of people. The most significant way the 
S&T community is addressing his charge to take care of our 
people is medical research and development. About 18 months 
ago, in recognition of the exceptional importance and urgency 
and improvements in combat casualty care, the department 
conducted an extensive review of medical R&D. The assessment 
resulted in the justification for substantial budget increase 
which was directed to the services and defense health program.
    Secretary Gates's second priority is institutionalizing and 
enhance our capabilities to fight current and future wars, 
which means we need to continue the shift of investment from 
kinetic to non-kinetic capabilities to meet the unique 
challenges of irregular warfare. We have emphasized development 
of new capabilities in several high-priority areas to include 
intelligence, surveillance, reconnaissance (ISR), large data 
processing, command and control of network sciences, cyber 
protection, social modeling, irregular warfare modeling and 
simulation, and energy efficiency for forward deployed forces. 
I would be happy to discuss any of these areas in detail during 
the question and answer period.
    The final priority highlighted by Secretary Gates is 
improving acquisition process and accountability. There have 
been numerous blue ribbon panels or blue ribbon studies 
pointing to the challenges facing our acquisition program. The 
S&T team can play a key role in several areas, including 
technology maturity assessments, rapid acquisition, agile 
information tools and high performance computing. Again, I 
would be happy to discuss any of these in further detail during 
question and answer.
    In conclusion, the DOD S&T community has adapted and will 
continue to adapt to the needs of the warfighter, as guided by 
Secretary Gates's core strategic principles. The basic research 
program is stronger. We are expanding our S&T program to take 
better care of our people. We are developing capabilities both 
for the current and future conflicts and we are improving our 
department's acquisition posture.
    In short, the S&T community stands ready to provide 
combatant commanders the tools necessary to carry out their 
missions around the world. Our measure of success will always 
be the ability for our soldiers, sailors, airmen and Marines to 
maintain a technological advantage on the battlefield. We 
appreciate the opportunity to provide the update on the status 
of the DOD enterprise. Thank you.
    [The prepared statement of Mr. Shaffer can be found in the 
Appendix on page 35.]
    Mr. Smith. Thank you very much. Dr. Killion.

STATEMENT OF DR. THOMAS KILLION, DEPUTY ASSISTANT SECRETARY OF 
        THE ARMY FOR RESEARCH AND TECHNOLOGY, U.S. ARMY

    Dr. Killion. Thank you, Chairman Smith and the 
distinguished members of the subcommittee. I appreciate the 
opportunity to discuss the fiscal year 2010 Army science and 
technology program and the significant role that S&T is playing 
in supporting our warfighters both tomorrow and today. And I 
have submitted a written statement and request that it be 
accepted for the record.
    Mr. Smith. Without objection.
    Dr. Killion. I want to thank the members of this committee 
for your critical role in supporting our soldiers who are at 
war and for your advocacy of Army S&T investments. They will 
help to sustain technological preeminence for our soldiers. 
Your continued support is absolutely vital to our success. The 
Army's S&T investment strategy is shaped to foster innovation 
and mature technology to enable future force capabilities, 
while exploiting opportunities to rapidly transition technology 
to the current force.
    The S&T program retains flexibility to be responsive to 
unforeseen needs identified through current operations. We have 
rapidly responded to a broad range of these needs. Our Army 
scientists and engineers have made significant contributions to 
the war fighting systems being used to buy today's soldiers.
    Recent Army S&T transitions to Operation Iraqi Freedom and 
Operation Enduring Freedom have significantly reduced soldier 
and vehicle weight burdens while increasing protection 
capability. Additionally, because of the Army's S&T's position 
early in the acquisition process, our work in armor, networks, 
power and energy and other areas are well positioned to support 
Army brigade combat team modernization.
    Army S&T is seeking to optimize our future investments to 
mature both vehicle and soldier protection and efficiently 
reduce weight burdens as collective systems. S&T investments 
contributing to soldier weight reduction are approached in a 
holistic fashion to address personnel load issues. Exploitation 
of advanced materials and manufacturing processes allow for 
weight reduction of individual components while increasing the 
capability of soldier equipment.
    Our investment in medical S&T provides the basis for 
maintaining both the physical and psychological health of our 
soldiers as well as enhancing their performance. Battle Mind, 
which is the Army's psychological resiliency building program, 
prepares soldiers for both the mental and emotional rigors 
faced during deployment and improves their ability to 
transition home.
    We have also recently initiated a program to develop 
detection and prevention methods that combat the incidents of 
suicide in our soldiers.
    While much of the focus of our S&T investments is 
necessarily on near and midterm futures, we have also sustained 
our commitment to basic research that seeks to enable the next 
generation of soldiers with paradigm-shifting capabilities to 
dominate in the full spectrum of battle space environments.
    In closing, I would like to thank you, Mr. Chairman, for 
the opportunity to testify before the subcommittee and for your 
support to Army, science and technology investments. I am proud 
to represent the efforts of thousands of Army scientists and 
engineers dedicating to providing our soldiers with the best 
possible technology in the shortest possible time. I will be 
pleased to answer your questions and those of the subcommittee.
    Mr. Smith. Thank you very much.
    [The prepared statement of Dr. Killion can be found in the 
Appendix on page 69.]
     Mr. Smith. Admiral Carr.

  STATEMENT OF REAR ADM. NEVIN CARR, JR., USN, CHIEF OF NAVAL 
    RESEARCH, DIRECTOR, TEST AND EVALUATION AND TECHNOLOGY 
                    REQUIREMENTS, U.S. NAVY

    Admiral Carr. Thank you, Mr. Chairman, and members of the 
committee. It is an honor to appear before you to report on 
science and technology efforts within the Department of the 
Navy and how the President's fiscal year 2010 budget request 
supports the Navy and Marine Corps.
    Accompanying me is the Vice Chief of Naval Research 
Brigadier General Thomas Murray who also serves as Commanding 
General of the Marine Corps Warfighting Laboratory. The naval 
S&T challenge is to support a Navy and Marine Corps capable of 
prevailing in any threat environment. In order to address 
critical Navy and Marine Corps challenges today and tomorrow, 
the Office of Naval Research (ONR) must focus on S&T areas that 
provide the biggest payoff for our future, be innovative in our 
thinking and business processes and continuously improve our 
ability to transition that S&T into acquisition programs.
    The President's fiscal year 2010 budget requests 1.8 
billion for Naval S&T to accomplish these goals. As you know, 
it is not just about high tech weapons. Please let me share an 
example of S&T efforts to protect sailors and Marines in the 
operational environment by reducing hearing damage to personnel 
exposed to high noise. We are working on multiple approaches to 
reduce, monitor and assess exposure, develop advanced personal 
protective equipment, and develop enhanced warnings and 
procedures to insure exposure does not become damaging.
    ONR developed technologies are now transitioning to the 
warfighter as part of the acquisition's sponsors flight deck 
cranial program. We are also working on treatment, including 
groundbreaking pharmaceutical inventions for situations where 
potentially damaging exposure does occur.
    In another area of interest to Congress, ONR is working 
with DOD and Navy task force energy to reduce the amount of 
fossil fuels used by our forces. We continue to invest in Navy 
future fuel's efforts to investigate the impact of new fuel 
formulations on naval machinery. In fiscal year 2009, Congress 
added 20 million for alternative energy research. We are using 
the funds to evaluate energy positive structures, advanced 
solar, wind and ocean thermal technologies. And to address 
system integration impacts and intermittent time renewable 
energy sources on power grids.
    Finally, ONR continues to support research in fuel cells, 
methane hydrates and other sources of energy. Significant S&T 
efforts are dedicated to responsible stewardship of the marine 
environment. This includes impact of national security 
requirements on marine mammals. The Navy is the world leader on 
marine mammal research, with ONR spending approximately 14 
million annually to understand how marine mammals may be 
affected by sound.
    Navy investments represent a majority of funding spent on 
this research in the U.S. and nearly half of that spent 
worldwide. Congress has been generous in support of these 
programs, and I look forward to continued partnership in 
achieving the goal of better protecting the marine environment. 
Prevailing in today's threat environment and building a strong 
flexible force in the future requires careful S&T investment to 
protect the Nation and our warfighters. To achieve that goal we 
continue moving forward toward a greater integration of 
capabilities, more effective partnership between research and 
acquisition and a clearer vision of how to achieve shared goals 
among DARPA, Army, Air Force and other DOD research 
organizations. We must monitor and leverage S&T in a global 
environment, worldwide movement of technology and innovation 
demands that we be able to take advantage of emerging ideas 
wherever they originate.
    We have an aggressive worldwide presence, with S&T 
partnerships in 70 countries, 50 states, 900 companies, 3,300 
principal investigators, 3,000 graduate students, and 1,000 
academic and nonprofit entities. Own our global offices London, 
Tokyo, Singapore and Santiago, Chile, help us stay abreast of 
emerging S&T trends around the world and avoid technological 
surprise.
    In order to tap the full spectrum of innovative thinking 
and discovery, we continue to focus the majority of our 
investments on performers outside the naval R&D system. 
Nevertheless, in a ceaseless effort to attract world-class 
scientists to become part of our organization, we continue to 
mature world-class skills and innovation within our lab systems 
and especially a naval research laboratory. For these reasons, 
I believe our S&T investments are sound and represent careful 
stewardship of tax dollars that will significantly enhance the 
safety and performance of our warfighters.
    Thank you for your support, I will do my best to answer 
your questions.
    Mr. Smith. Thank you, Admiral.
    [The prepared statement of Admiral Carr can be found in the 
Appendix on page 78.]
    Mr. Smith. Mr. Jaggers.

 STATEMENT OF TERRY JAGGERS, DEPUTY ASSISTANT SECRETARY OF THE 
 AIR FORCE FOR SCIENCE, TECHNOLOGY AND ENGINEERING, OFFICE OF 
    THE ASSISTANT SECRETARY FOR ACQUISITION, U.S. AIR FORCE

    Mr. Jaggers. Mr. Chairman, members of the subcommittee and 
staff. Thank you, I am pleased to have this opportunity to 
provide testimony on the fiscal year 2010 Air Force Science and 
Technology Program. The Air Force S&T program is a vital 
element of the Air Force's larger research and development 
strategy. At approximately $2.2 billion, the fiscal year 2010 
President's budget request for S&T includes an increase of $98 
million or almost 4 percent real growth over the fiscal year 
2009 core S&T request.
    For the past 2 years, I have spoken extensively about 
adapting Air Force S&T to the security environment identified 
in the 2006 Quadrennial Defense Review and shifting investment 
emphasis from traditional conventional threats to new 
unconventional threats such as terrorism. The Air Force S&T 
program continues to address this challenge by focusing 
investments on near-term contingency support and far-term 
capability needs to maintain technological superiority for our 
Nation.
    The five guiding principles I established back in 2005 for 
S&T now provide a comprehensive framework for our larger Air 
Force R&D strategy. My number one priority still remains the 
valuation and protection of our greatest R&D asset, people. To 
complement our recently approved human capital strategic plan 
for the acquisition workforce we have created a major 
initiative to recruit, develop, mentor and retain the Nation's 
best and brightest scientists, technologists, engineers and 
mathematicians, otherwise known as STEM.
    The National Research Council study we commissioned over a 
year ago to define Air Force STEM and lay out a road map to 
manage it effectively is scheduled for completion this summer. 
We look forward to the NRC recommendations and plan on 
incorporating them into our new Air Force STEM strategic plan. 
This STEM strategic plan will address the hundreds of thousands 
of critical STEM across the Air Force and better integrate the 
approximately 3,000 STEM at our Air Force research laboratory.
    Our hopes are to better synergize the many STEM workforce 
improvement initiatives across non-S&T, with those targeted for 
S&T, such as section 1108 and section 219 from the fiscal year 
2009 National Defense Authorization Act. We are maximizing the 
use of these authorities in the laboratory and hope to engage 
Congress on the larger STEM workforce issues in the future.
    My second priority is to maintain stability and balance in 
the S&T portfolio. An appropriate balance is not only required 
between the three budget activities of S&T, but also between 
S&T and the follow on prototyping budget activity four. This is 
critical to successful technology transition while ensuring our 
future acquisition programs are structured for success with 
disciplined, up-front system engineering.
    Closely coupled with this is our third S&T guiding 
principle, to focus technology development on Air Force 
strategic priorities. Again, our S&T program focuses technology 
investments on the five priorities of the Air Force: 
Revitalizing the nuclear enterprise, winning today's fight, 
developing and caring for airmen, modernizing our air space and 
cyber inventories, and recapturing acquisition excellence.
    Our fourth guiding principle, transition technology to 
warfighters and system developers, is one that has gained even 
greater importance during this time of acquisition improvement.
    Finding new and improved ways of transitioning technologies 
directly to the warfighter and into our weapon systems 
acquisitions is an area that has received special attention 
since we stood up our technology transition office within the 
headquarters Air Force last year. Already it has been directly 
responsible for crafting minimum criteria needed for successful 
transitions, as well as leading the theory and thought across 
the Department for early-phase systems engineering and pre-
acquisition technology insertion planning.
    Last, but certainly not least, is our fundamental principle 
of honoring commitments we have made with our partners. Whether 
they are with others across the Air Force, our sister services, 
Defense agencies, the Office of Secretary of Defense, industry 
academia, our allies or with you the Congress, Air Force S&T 
stands by our commitments. Guided by these principles, this 
budget request focuses investments on Air Force and joint 
warfighting needs. We continue to shift S&T investments from 
traditional areas to support unconventional warfare. A specific 
goal of the 2008 Air Force strategic plan is to bolster the Air 
Force core function of Intelligence, Surveillance and 
Reconnaissance, or ISR, support to the joint warfighter, 
emphasizing irregular warfare scenarios. The S&T program is 
developing unprecedented, proactive ISR technologies to create 
a universal situational awareness through a layered and 
flexible sensing architecture for use not only in traditional 
air warfare but in unconventional cyberspace warfare as well.
    Other focused investments include energy-efficient 
technologies to reduce our dependence on foreign oil. 
Sustainment technologies to assist in prolonging the life 
expectancy of our legacy aircraft, and, of course, game-
changing technologies such as directed energy, hypersonics, 
cyberspace and highly accurate low collateral damage 
conventional munitions.
    Related to S&T and technology development, I know there is 
a subcommittee interest in leveraging S&T competencies for 
acquisition improvement. As both the Air Force S&T executive 
and the Air Force chief engineer, I personally conduct all 
independent technology readiness assessments on the Air Force 
major defense acquisition programs. To date, I have led 
approximately 30 technology readiness assessments, 2 
manufacturing readiness assessments, 1 overall program 
assessment and multiple independent reviews. Obviously, these 
reviews inspect in quality after the fact and require 
integration to maximize their utility. In fact, we have a major 
initiative ongoing with the Office of the Secretary of Defense 
(OSD) right now to combine these specialty reviews into a 
single standardized process.
    However, to structure programs for success before these 
inspections begin, the Air Force is proud to have initiated two 
new programs. First, to address the NRC recommendation for 
early-phase systems engineering during pre-acquisition concept 
development. And the second, to reduce integration risks 
through pre-program of record competitive prototyping.
    The Air Force has already developed the policy framework to 
implement these two programs and are emboldened by the fact 
that both the Department of Defense instruction 5000.2 and 
recent House and Senate acquisition legislation reflect these 
very same NRC recommendations or any adopted by the Air Force.
    Guided by Air Force strategic priorities, the Air Force S&T 
program is rebuilding and reshaping the workforce balancing and 
focusing investments to modernize our inventories for a wide 
range of contingencies. Shrinking the technology transition 
gap, and honoring commitments with joint and coalition teams to 
win the fight today and tomorrow.
    Mr. Chairman, thank you again for the opportunity to 
present testimony, and I thank you for your continued support 
of the Air Force S&T program. I look forward to your questions.
    Mr. Smith. Thank you very much.
    [The prepared statement of Mr. Jaggers can be found in the 
Appendix on page 94.]
    Mr. Smith. Dr. Leheny.

   STATEMENT OF DR. ROBERT LEHENY, ACTING DIRECTOR, DEFENSE 
 ADVANCED RESEARCH PROJECTS AGENCY, OFFICE OF THE SECRETARY OF 
                            DEFENSE

    Dr. Leheny. Good morning. I would like to thank Chairman 
Smith and distinguished members of the subcommittee for this 
opportunity to briefly describe DARPA's programs and 
accomplishments which are discussed in much greater detail in 
my written testimony, which I would like to submit for the 
record.
    My remarks this morning I would like to focus on a few 
examples of how DARPA's work aligns with Secretary Gate's 
priorities for the department's 2010 budget. As we have already 
heard this morning, his first priority is to maintain our 
commitment to the care of all-volunteer forces. For several 
years, DARPA's bio-revolution programs have supported this 
commitment with innovative medical research programs. And our 
flagship program in this area is our revolutionizing 
prosthetics effort which was recently showcased here on the 
Hill as part of the Veteran Administration's research week and 
which was featured a few weeks ago on CBS television's 60 
Minutes program.
    The big news is that over the next 18 months in final test 
with the VA, approximately 30 combat veterans will participate 
in clinical trials of the prosthetic arm that is being 
developed in this program. And of this group, eight will test 
the arm at home in their normal day-to-day activities. In fact, 
one of these veterans is scheduled to take his arm home this 
week.
    In another of our medical programs, we are investigating 
the cause and treatment of traumatic brain injury, TBI. While 
the program is still in its early phases, it is already 
providing insights into the potential budget of TBI, insights 
that we believe will lead to new treatments, therapies to 
minimize the long-term effects of this devastating injury.
    The Secretary is also emphasizing the need to rebalance the 
Department's investments to enhance our ability to fight the 
kind of wars we are fighting today. At DARPA, we began this 
process more than a decade ago. And in direct response to 
challenges our troops are encountering in Iraq and Afghanistan, 
we identified urban area operations as a specific agency 
strategic thrust.
    One success within this program is our hard wire vehicle 
armor program which has demonstrated advanced composite armor 
system that is being used to protect troops on thousands of 
Mine Resistant Ambush Protected (MRAP) vehicles today. At the 
same time, we began investigating new modes of ISR capabilities 
with a goal of creating a decisive edge for our forces: 
Capabilities for sharing information among small ground units; 
for better management of manned and unmanned ISR assets; for 
increasing predator effectiveness by providing video feeds to 
more than 50 users from a single predator platform; for 
providing new UAV-based radar capabilities; for finding and 
tracking ground vehicles and dismounts in cities and under 
forest canopies.
    And in a very ambitious program, we are jointly working 
with, and recently undertaken, with the Air Force, we will 
demonstrate a radar-equipped airship that can provide 
unprecedented wide-area surveillance capabilities, and which, 
when fully developed, will be capable of operating continuously 
for up to 10 years.
    The current conflict has also highlighted the importance of 
prompt language translation. DARPA is meeting this need with 
technology for near-real-time translations of Arabic TV 
broadcasts, translations that are providing our forces better 
situational awareness. Our long-term goal is to dramatically 
reduce the need for human language translators.
    And in further keeping with the Secretary's objectives, we 
continue to invest in conventional force-on-force capabilities 
by supporting research on space technologies, unmanned systems, 
novel weapons and technologies for netcentric warfare and 
information assurance.
    Of particular interest are our investments in 
cybersecurity. These include investigating ways to find 
malicious elements inserted during manufacture into the 
microchips that are the brains in so many of our advanced 
systems. In an effort that we expect will be the foundation for 
future cybersecurity research, we are creating a national cyber 
range. This range, by providing tools for establishing and 
making precision measurements on a large scale, using realistic 
cyber networks, the test bed will impact--major principal 
impact--will be to spur further development in cybersecurity.
    Finally, in the belief that the best way to prepare for the 
future is by creating it, we continue to maintain a robust 
portfolio program focused on our core technologies. These 
programs extend from quantum physics and theoretical 
mathematics, to material and information science to advanced 
micro systems. The fruits of these investments will create 
future capabilities and provide us our longest term guard 
against conventional or asymmetric surprises. And in an 
initiative that grew out of our robotic vehicle grand challenge 
experience, we have begun a program targeted at high school 
students interested in computer science.
    These are just a few examples of what we are doing at 
DARPA. There are many more in the written testimony. Thank you, 
and I would be pleased to take your questions at this time.
    [The prepared statement of Dr. Leheny can be found in the 
Appendix on page 105.]
    Mr. Smith. Thank you all. We will do questions under the 
five-minute rule for everybody, including me. First, I want to 
ask about the Joint Improvised Explosive Device Defeat 
Organization (JIEDDO) program and how much progress we are 
making in terms of dealing with improvised explosive devices, 
and what your research is focusing on to try to solve that 
problem. I understand some progress has been made, a vexing, 
vexing issue, but what S&T approaches are we employing at this 
point to try to address that?
    I guess, Mr. Shaffer, I will start with you, and if anyone 
else wants to chime in, they may.
    Mr. Shaffer. Yes, sir, thank you sir, that is a tough 
question and especially to answer in this particular forum.
    Mr. Smith. Yes, I was looking through my series of 
questions here and a whole bunch of them seem to be generated 
in areas that we can't answer in this forum. But some broad 
outlines.
    Mr. Shaffer. I will turn to my compatriots who are in the 
services, actually doing the work. But what I will tell you 
this year and really at the insistence and hard dedication of 
Dr. Andre van Tilborg, who is sitting behind me, the Under 
Secretary for science and technology, we conducted an end-to-
end review, really a focus-deep dive of what JIEDDO is doing in 
their science and technology program and aligning those efforts 
with our service programs. And really the JIEDDO program 
stretches across an entire spectrum of technologies, everything 
from neutralizing detonation devices, but now starting to work 
our way back up the chain to understand the network that leads 
to some of these terrorist bombers. Can we go ahead and get to 
the network and prevent the IED before the IED is built?
    So when you take a look at the JIEDDO program, it is more 
from just protecting against the specific device to protecting 
against the event. And I think I would like to turn to my 
compatriots and my colleagues for specific activities in their 
areas.
    Mr. Smith. Certainly. Dr. Killion.
    Dr. Killion. Sure, of course is there a broad range of 
technologies that apply in this case----
    Mr. Smith. I guess when I am trying to get at, sir, what is 
the most promising? I guess the answer to that is nothing is 
most promising it is a series of approaches and you have to try 
all of them.
    Dr. Killion. You have to try a range of them, certainly, 
and we have applied a number of them what JIEDDO helped to do 
is aid to provide resources and focus, to actually take the 
technologies we are working in the labs and quickly bring them 
to the fore to get them to the field. We actually continue to 
work the underlying technologies, JIEDDO helps to mature them 
and get them out.
    Mr. Smith. Right.
    Dr. Killion. That is a good partnership. We are doing that 
in a number of areas. Armor is clearly an important area in 
terms of the protection of vehicles, not only for combat 
vehicles, tactical vehicles. We have done work in the MRAP 
program in terms of enhancing protection on some of those 
vehicles where we've added lightweight armor to them that 
wasn't there to begin with. The electronic warfare domain, 
which we can't say a whole lot about in this forum, that is an 
area where in terms of exploiting devices and also coming up 
with methodologies to feed, control and initiation of those 
devices, there are tools that have been developed across the 
service laboratories.
    And in the ISR domain, as Al mentioned, in terms of looking 
at the network, it is a matter of being able to monitor who is 
doing what, detect the presence of explosives, detect the 
presence of activities by certain individuals. There is a full 
range of technologies that do apply to try and disrupt a 
network of activities and also defeat the device when the time 
comes to do so.
    I think we have been pretty effective in bringing to the 
fore as many of those as feasible. And that is always the 
challenge is the balance of what can you actually do and apply 
it to a vehicle and have it still be able to do its job, for 
example.
    Mr. Smith. Anybody else have comments?
    Admiral Carr. I guess I just would echo the kill chain 
approach and the good work across the kill chain from 
understanding the social networks, and who is doing what, and 
trying to interrupt things before they get to that point of 
explosion which is not where you want to defeat an IED. I would 
say there is no single ah-hah technology that will be our 
panacea, but across that whole chain, lots of work to 
interrupting that moment of detonation, protecting against it 
when it does occur and obviously protecting the warfighters 
that have suffered those detonations, no single-point solution.
    Mr. Smith. Okay.
    Dr. Leheny. I would like to mention DARPA is working 
closely with JIEDDO. We have created a village in the National 
Training Center where we are undergoing a number of tests. We 
are looking at, because the materials themselves are so 
difficult to detect, the chemical detection systems are not 
very effective. We are looking at, by having persons in that 
village, actually assembling the bombs, we are able to 
determine using the techniques that we know the terrorists use 
to readily detect the chemicals associated with the fabrication 
of the bombs.
    Mr. Smith. Learn what you should be looking for in advance. 
Understood.
    Dr. Leheny. Absolutely.
    Mr. Smith. I am out of time. Mr. Jaggers, really quick. 
Okay, I yield to Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. Dr. Leheny, how is 
DARPA coordinating its cyber research activities with other 
relevant federal agencies, including agencies that fund 
unclassified research in studies the National Science 
Foundation? And will these agencies and other civilian research 
agencies have access to the National Cyber Range or other 
support infrastructure?
    Dr. Leheny. Yes, DARPA is participating with a number of 
other agencies of the government in an Office of Science and 
Technology Policy (OSTP)-led effort to coordinate our reaction, 
the national reaction, if you like, to the cyber threat. It is 
certainly our intent that the National Cyber Range, once it is 
established, will be available for both government and 
nongovernment researchers, and other interested parties to take 
advantage of the capabilities cyber range will provide.
    As one aspect of the range is we believe it would be 
possible to conduct both classified and unclassified research 
activities on the range at the same time that the range itself 
will be capable of separating, if you like, the various 
activities that are taking place so as to protect the 
classified nature of that network which has to be classified.
    Mr. Miller. Thank you, sir. A little more broader question, 
anybody can jump on this one if they want. We all know that 
rapid fielding has emerged as the way to get things out to the 
warfighter, but there are challenges that are still out there 
confronting the process. And what I would like to know is what 
the is impact that rapid fielding has on traditional or 
standard testing processes or procedures? Anybody can take that 
one.
    Mr. Shaffer. Sir, I will try this one, I am not sure I will 
be able to answer the question. I will speak from the 
experience of two particular vantage points. One, I am the 
executive director of the MRAP task force and two, the joint 
rapid acquisition cell falls under my responsibility. While we 
strive to push things out just as fast as possible, we always 
do test things. So, for instance, the MRAP vehicles, the 
largest amount of time that it takes from the time that we put 
a contract out, to getting those into the hands of the soldiers 
and Marines in Iraq and Afghanistan is in testing, so we 
understand what is going on.
    The same thing will happen with the joint rapid 
acquisitions bill and anything we are pushing out we accelerate 
testing. I had hoped that Dr. John Foulkes from the Test 
Research Management Center (TRMC) was going to be here today. 
He apparently was detained. But we work very closely with TRMC 
and all of these rapid fielding and Operational Test and 
Evaluation (OT&E) and Developmental Test and Evaluation (DT&E) 
in fielding, and with the services to make sure that what we 
send out we at least understand and test.
    Mr. Jaggers. Sir, I will just add the two things that 
probably suffer in the test world from rapid fielding, are 
obviously you are doing developmental test work, piece of 
developmental test, certainly operational test in theater when 
that piece is deployed. Things that suffer are things like 
reliability, maintainability and sustainability, things that 
you want to define into the system and test those before they 
go over there before it is a surprise to maintainers and avoid 
suspicions you have to operate in theater.
    The other thing that tends to suffer is interoperability. 
There are a lot of legacy systems out there that have to 
interface. And to flesh those things out ahead of time in an 
operationally relevant environment before you deploy to the 
operational environment to understand where those interfaces 
are and interoperability issues obviously would be something of 
value. I guess my thoughts are as long as the commander in 
theater knows those risks and limitations and is willing to 
take the benefits that outweigh those risks and limitations, 
then it's something that needs to go to the field rapidly.
    Mr. Miller. If I could follow Mr. Jaggers. The Government 
Accountability Office (GAO) has criticized repeatedly the F-35 
program for reducing its Test and Evaluation (T&E) activities 
and assuming, saying it was assuming too much risk. And the 
President's budget is accelerating procurement of the Joint 
Strike Fighter (JSF) and stopping production of the F-22 or 
procurement of the F-22. Can you expand on what you may see as 
the current risk to the JSF program due to reduced T&E activity 
or do you see any?
    Mr. Jaggers. Sir, that is a better question for the service 
acquisition executive, my boss, the Secretary of the Air 
Force--Acquisition (SAF AQ). I will take that for the record. 
In general any time there are two items that tend to get 
reduced in acquisition programs as a matter of record when they 
extend out their acquisition life cycle and that is test, and 
the other one is system engineering. Those tend to be tradeable 
things, an acquisition program at the expense of cost and 
schedule.
    In general that is a bad practice as a matter of process.
    Mr. Miller. Thank you, my time has expired.
    Mr. Smith. Mr. Ellsworth.
    Mr. Ellsworth. Thank you, Mr. Chairman. My first question 
probably is best for Mr. Shaffer and Dr. Leheny. Can you 
discuss, I represent the 8th district of Indiana. Crane Naval 
Warfare Center is in my district, and I know they do great work 
there. Can you talk about the workforce development issues that 
you might face in research and development in DARPA, difficulty 
in finding the folks, it is a very rural area of my state, but 
maybe some of the challenges you are facing finding a workforce 
and finding the folks to do the Research and Development (R&D) 
that you find necessary.
    Mr. Smith. That is not just because they do not want to 
live in Indiana. I have been to Crane, it is a lovely place to 
work. I am just giving you a bad time, go ahead.
    Mr. Shaffer. Anybody who likes basketball likes to go to 
Indiana, so I don't understand the problem with Crane.
    Science and engineering workforce is a concern of everybody 
at this table because it is a competitive world. And there are 
numerous recent reports. We need to do everything we can to 
grow the entire science and engineering base of America and 
then be agile and effective in getting workers and researchers 
into our DOD laboratories. There are a number of recent 
initiatives and then I will turn it over to Dr. Leheny and 
others that are allowing us better authorities for hiring 
people rapidly.
    The Department is beginning to use those. And actually the 
first one out of the shoot is Navy Research Laboratory and the 
Navy Surface Warfare Centers. I got a report, and I should 
probably let Admiral Carr talk about this, but I got a report 
from Dr. John Montgomery of Navy Research Laboratory who loves 
the rapid hiring authorities. Since they were approved and 
delegated to him in March, he has been able to fill nearly his 
entire quota of 30 people with high-quality people. What you 
find you have very good problems and can hire people on the 
spot and give them a future we can get people in science and 
engineering. That doesn't address the overall issue of the 
number of scientists and engineers available, we have to work 
that, and in fact, there is legislation out to take a look at 
that as a whole of government approach, but it really is a very 
complex problem. Create the scientists and engineers and then 
let us hire them quickly.
    Bob.
    Dr. Leheny. What I would add is that DARPA, of course, has 
a rather small workforce of its own. We do most of our research 
through contracting.
    And to specifically answer your question about your part of 
the country, we recently visited the University of Indiana at 
Indianapolis and spent half a day meeting with some of the 
senior faculty there who described to us the kinds of research 
that are being done on the campus there. We were very impressed 
by the facilities that we saw and the quality of the research 
described to us. And we left them with information about how to 
access us, there are already people in the university being 
supported by DARPA in some of our programs. We encourage them 
to make further use of the availability of our research funds 
and further their programs.
    All our programs are competitively solicited so anyone in 
your district who has an interest in receiving support from 
DARPA for technical research that they want to engage in, we 
welcome them to contact us with their ideas and we will 
certainly take them under consideration.
    Mr. Jaggers. Sir, I would add the authorities given to the 
lab, lab demo, section 219, 1108, those kind of things 
definitely make it easier to hire and better situation for the 
laboratory of science and technology community, in the Air 
Force that is 3,000 scientists and engineers in laboratory.
    What concerns me, is that we have hundreds of thousands of 
Science, Technology, Engineering and Mathematics (STEM) 
scientists and engineers outside of the laboratory too. We have 
weather officers, half of our pilots have STEM background, 
without those authorities. And beyond the laboratory 
environment makes it difficult. My concern is some day in the 
future we might not be able to get those manned as we would 
like with STEM personnel.
    Mr. Ellsworth. That would be my concern too. Thank you all 
very much, Mr. Chairman. I yield back.
    Mr. Smith. Thank you. Mr. Conaway.
    Mr. Conaway. Well thanks, sir, I appreciate you being here. 
This is a 50,000-foot question, but maybe start with Dr. 
Shaffer, how does the system prioritize between immediate needs 
like the hearing loss program and the prosthetic program and 
the arms versus the 20-year out, pie in the sky, what-if kind 
of needs? Who sets those priorities, how do you allocate the 
resources against that? And how do you split that up between 
the various services and their cadre of great scientists?
    Mr. Shaffer. Sir, that is a tough question, I wish there 
was a magic formula, there is not. All of us wrestle with the 
priorities between the near and the far term. Right now 
Secretary Gates will go around the third floor and he wants to 
make sure that we understand and we all understand we are a 
nation at war. Anything that we can do to push technologies 
from our laboratories, out to hands of the warfighters, that 
technology makes a difference is our number one priority. 
Beyond that, and this is where the difficulty comes in, while 
Secretary Gates's clearing has given us that mandate, Secretary 
Gates also gave us the mandate to increase basic research to 
keep the overall knowledge base going.
    So at the end of the day, it is through the very hard work 
of going through the priorities, the alternatives of everybody 
at this table working with program analysis and evaluation, 
working with the requirers, working with the combatant 
commanders, we do our very best to hit that balance, but there 
is no magic formula. Everybody works as hard as they can to 
optimize payoff for the research that we have.
    Dr. Killion. And to follow up to what Mr. Shaffer says, I 
think it is important to recognize you don't make that 
distinction in my investment in 61, 62 and 63 between what is 
invested necessarily in near term versus far term other than 
basic research farther away in terms of maturity than advanced 
technology. It is really about the fact that we maintain a 
workforce of skilled individuals who understand technology and 
understand the Army and its needs, that is both in its labs and 
with our partners and universities in the industry. It is 
because you have those people who have that understanding and 
knowledge about the technology that they can then take that 
knowledge and use it to solve problems, they can come up with a 
solution.
    You can go back to the gentleman in the laboratory who is 
working on materials and say, we just discovered a problem with 
this particular type of armor, why is it failing the way it is, 
what can I do to fix that problem? And because they have that 
knowledge and the methodology that they can use to bring to 
bear to the problem, they can come up with the solution and 
answer to the question and come up with an alternative.
    Mr. Conaway. Let me ask this then, the weight of body armor 
bothers all of us, soldiers wear it, Marines wear it, airmen 
wear it. I guess Navy guys, who decides that we are going to 
take on the task of providing effective equipment, but lowering 
the weight? How do you decide where that project goes? How do 
you focus it?
    Dr. Killion. We have a systematic program within the Army, 
it is a partnership between the Army Research Laboratory that 
does fundamental research in that area, materials research, 
Natick, and the Program Executive Office (PEO), which was 
actually managing the soldier program in terms of looking at 
okay, what do I do to redesign, to incorporate new materials 
into such a system to provide better protection. It is driven 
by the threat that you have to compete up there.
    Mr. Shaffer. But I would like to amplify a little bit, sir. 
We have a process and the representatives of the group called 
the Defense Science & Technology Advisory Group (DSTAG) are 
sitting at this table, along with Dr. van Tilborg, we go out 
and scan the horizon and look for hard problems.
    This morning, our council of colonels at our direction came 
in and said we are going to take on in a very deep dive look at 
the weight restrictions on dismounted infantry. So all of us 
are going to go out to our programs, focus the technology that 
we can to reduce the weight of dismounted infantry men, and we 
will do that over about a two- to three-month period to affect 
the program budget review.
    Mr. Conaway. Let me ask this: You have the Army guys doing 
it, and some Navy scientists doing it for the Marine Corps, and 
some Air Force scientists doing it for the Air Force.
    Mr. Shaffer. And DARPA.
    Mr. Conaway. And DARPA. Of course. Why have they not all 
duplicative doing the same thing? How do you focus it so that 
you have the right synergy of enough minds going that you get 
the weird idea that really works and you don't have everybody 
doing the exact the same thing over and over.
    Mr. Shaffer. That is exactly why we bring together the 
technology focus teams under the DSTAG. That technology focus 
team to reduce the weight on the soldier will actually be 
reduce the weight on everybody. There are airmen out there 
walking around, Marines and Navy people, that will have 
representatives from all of us and our laboratories coming 
together and showing each other and comparing technologies and 
looking for those most promising option. So that team, the 
technology focus team, will represent the entire department. 
And internally deconflict, because everybody we have in those 
teams wants to do what is right for the deployed forces. And 
they will share and trade information. You know, it is 
remarkable what happens when bureaucracy gets out of the way 
and people who want to make a difference get together and start 
working.
    Mr. Jaggers. For instance, sir, Air Force is not in the 
body armor business, that is an Army shop. However when you 
come up with a hard problem like that, the Air Force is into 
lightweight composite materials for aircraft. And we can bring 
skills and competencies to bear on that Army or bigger larger 
warfighter challenge. And we get the right people hooked up 
with the Army to provide support in that regard. It is that--
the particular materials inside the body armor vests.
    Admiral Carr. In the interest of the Marine Corps, we are 
certainly working closely with the Army. I would say the cross 
talk is very good.
    Mr. Conaway. Thank you very much.
    Admiral Carr. That is a problem we all face. The magnetic 
attraction is pull investment forward so you can help out 
programs. And we need to keep fertilizing those distant fields 
not just for the technology but as Dr. Killion said, scientists 
that are out there.
    Mr. Smith. Thank you, Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman. Can't let the 
comment go without Indiana basketball without recognizing our 
North Carolina basketball. The Tar Heels were at the White 
House last week.
    And speaking of that, Dr. Joe DeSimone from the University 
of North Carolina, I know, has worked with DARPA on nanoscience 
and nanotechnology, and that was recognized as the Tar Heel of 
the year in North Carolina, the citizen of the year for his 
work in this area being so involved with DARPA.
    I notice on page 45 of the report that you have given us 
that you state DARPA is also exploiting advances in nanoscience 
and nanotechnology or matter manipulated at the atomic scale. 
Can you tell us which one may be more comfortable describing 
exactly how this nanotechnology is making a difference at the 
atomic scale with what you are doing in DARPA?
    Dr. Leheny. Let me try. When we talk about nano scale, what 
we are talking about are dimensions, the typical atom is on the 
order of a nanometer. So we are talking from the size of an 
atom to a few hundred atoms. What we know is those size scales, 
nature allows us to manipulate forces, like electromagnetic 
forces light, in ways that are difficult to do that--in much 
larger scales.
    For example, by capturing light more efficiently, we can 
make a more effective photodetector. And it is possible to do 
that using nanoscale structures. Because what the nanoscale 
structure does is it essentially takes the photon, which has a 
dimension on the order of a micron, which is many hundreds of 
nanometers, and channels it into the material that is actually 
going to convert the photon into an electron or a whole, which 
can then be measured electrically. Very much the way that an 
antenna; for example, if you think of the old television 
antennas that we had on the roofs of our house, that guides the 
electromagnetic energy down into your TV set, where it is 
detected. The elements in your TV set detecting that 
electromagnetic energy are much smaller than the wavelength of 
the radio frequency (RF) signal that you are detecting, and it 
is the guiding properties of the antenna structure that brings 
the energy into your TV set, where it can be detected. At the 
nanoscale we can make objects that will guide light in the same 
way that your antenna guides an RF signal into your receiver, 
and therefore more efficiently detect the light. And the kinds 
of light that we want to detect are infrared light, short 
wavelength light, visible light, through all kinds of sensing 
applications.
    Mr. McIntyre. The research is fascinating, and I am glad 
that DARPA is once again at the forefront of using 
nanotechnology to our advantage. Can you also tell me how DARPA 
is coordinating its cybersecurity research and planning 
activities with other relevant federal agencies, agencies like 
the National Science Foundation (NSF) that fund unclassified 
research?
    Dr. Leheny. Coordination is a difficult concept, because 
both the NSF and DARPA have very different missions. The NSF of 
course, its primary mission is to educate and advance our 
understanding of the world that we live in, whereas DARPA's 
mission is a mission to advance the utility of that 
understanding. So in some respects we are orthogonal in our 
approach to how we deal with advancing the science and 
technology. And in cyber technology it is just another example 
of that. We coordinate, to the extent that we do, largely at 
the present time through the OSTP National Cyber Initiative 
activities. And as we go forward with this cyber range 
activity, we will be of course creating a test facility that 
will be open to researchers who are supported by the NSF, as 
well as other researchers.
    Mr. McIntyre. That is good. Thank you, Mr. Chairman.
    Mr. Smith. Thank you. Mr. Murphy, you have anything?
    Mr. Murphy of Pennsylvania. Great. Thanks, Mr. Chairman. 
Gentlemen, thanks so much for your testimony today and your 
service to our country.
    There was an article in the Los Angeles Times on April 26th 
which cited that the Department of Defense is the single 
largest energy consumer in the United States. Last year it 
bought 4 billion gallons of jet fuel, 220 million gallons of 
diesel and 73 million gallons of gasoline. And when gas prices 
skyrocketed last summer, the Department of Defense energy tab 
increased from about 13 billion per year in 2007 to 20 billion 
in 2008. The Army alone had to make up a half a billion dollar 
shortfall in its energy budget. You know, we often get our oil 
from countries that obviously don't have America's best 
interests at heart. And when a $10 rise in the price of a 
barrel means $1.3 billion increase in the Pentagon's energy 
costs, this is more than an environmental issue, it is a 
national security issue.
    What is there in the fiscal year 2010 budget to increase 
research and development of alternative fuels so that our 
vehicles of war are not dependent upon traditional logistic 
fuels?
    Mr. Shaffer. Sir, I will go ahead and start that, but each 
of the groups here are doing some things in alternative 
energies or fuels. I have been very fortunate, because I have 
had the chance to lead the Department's Energy Security Task 
Force. In the last 3 years, our investment in research and 
development, not just science and technology, but research and 
development in energy security, has risen from $400 million to 
about $1.2 billion. You have to take a look at energy as a very 
holistic thing. And we have a number of efforts, from improving 
our efficiency of turbine engines for our aircraft, to making 
lighter weight vehicles for our Army for the next generation of 
vehicles, to using fuel cells, to trying to get to a deployable 
system that will generate nearly as much energy as it takes in 
from outside sources, alternative sources, solar, wind, and 
that type of thing.
    Specifically on alternative fuels, our single largest 
contribution in the past year has been a DARPA effort that went 
on contract--Bob, I should let you do this--but in December or 
January to turn algae and other biomasses into jet fuel. But 
Dr. Killion has some small efforts around and in some of his 
laboratories. Admiral Carr has efforts primarily out at China 
Lake. And the Air Force has done a tremendous amount for 
synthetic fuels using Fischer-Tropsch.
    So the Department as a whole is looking at alternative 
forms of fuel. And that is coordinated through the Energy 
Security Task Force, which has representatives from S&T, 
logistics, fuel distributors, et cetera. Other guys?
    Dr. Leheny. If I could just inject something, at DARPA the 
approach we are taking, and we are spending this year over $55 
million and about the same budgeted for next year, the approach 
that we are taking is a broad one. In the area of alternative 
fuels based upon crop oils and plant-derived oils, the problem 
is, and to make it as simple as possible, if you have ever 
taken a bottle of olive oil and put it in your refrigerator, 
you know that it turns to sludge because of the way that the 
oil condenses at low temperature. So one of the challenges for 
taking vegetable-derived oils and using them for jet fuel, for 
example, is to ensure that those oils remain--the viscosity of 
the oil is adequate at the low temperatures that they have to 
operate. And so what we are doing is we are investing in 
research to crack the molecules of the oil to create molecules 
that are more like the jet fuel molecules, that therefore in 
effect convert these plant-derived oils into oils that can be 
used as a fuel.
    Mr. Murphy of Pennsylvania. How many years do you think we 
are away from seeing that technology put to use?
    Dr. Leheny. I would hesitate to put an exact number on 
that, but I would think that we are between three and five 
years of being able to deliver an efficient process for being 
able to convert these plant-derived oils into usable jet fuel.
    Mr. Murphy of Pennsylvania. I don't know if this--if I 
could have a quick follow-up?
    Mr. Smith. Sure.
    Mr. Murphy of Pennsylvania. Mr. Killion with the Army, I 
know that article in the Los Angeles Times that talked about 
Fort Irwin and how they utilize--and they call it, instead of 
the footprint they usually call it the boot print--those solar 
panels that we utilize for vehicles transporting troops at Fort 
Irwin, and give energy and obviously down to control the 
environment, air, is that ready to go out into the field in 
places?
    Dr. Killion. Well, it depends upon what you mean by out in 
the field. We tend to use these like electric vehicles as 
something that would be used domestically on a base to 
substitute for gasoline-powered vehicles or driving materials 
around, delivering materiel, doing work at a base. It isn't 
something that we are prepared to deploy in a combat 
environment as such. But as Al says, we are also looking at 
ways of reducing the demand that is associated with those 
tactical and combat vehicles that are deployed, as well as the 
energy footprint of our installations. There are a lot of 
initiatives that the Army and I know the Navy are pursuing in 
terms of demonstrating capabilities at those installations, be 
they solar, be they geothermal, wind power, to substitute for 
demand that is on the grid that is using hydrocarbon-based 
fuels really as an energy source today.
    Admiral Carr. It is not just a fuel question.
    Mr. Smith. If the two of you could do it fairly quickly, we 
are a bit over time here. We want to give other members a 
chance. Go ahead and do it, just quickly if you could.
    Admiral Carr. Thank you, Mr. Chairman. I was going to say 
it is not just a fuel question of course. I am an operator, I 
come from the fleet, so I think in terms of my beloved kill 
chain. But it is that whole chain, from generating to storing 
to distributing and how you use them. And to just pluck one 
ship application, we have developed with the Naval Sea Systems 
Command a device to recover energy from the reduction gears in 
DDG-51 class ships. And what this allows you to do is to store 
a little bit of energy so you don't have to run the same number 
of generators all the time to get you through those spike 
voltage demand periods. And by turning off a generator, now you 
have just reduced your fuel consumption. So there are many 
things across that whole chain that we are looking at. And I 
work closely with Rear Admiral Phil Cullom, who chairs the 
Chief of Naval Operations' (CNO's) Task Force Energy for the 
Navy. And we work very closely together with him.
    Mr. Smith. Mr. Jaggers.
    Mr. Jaggers. In 20 second or less, at the Air Force we have 
three major things going on. One is $75 million of the economic 
stimulus that is devoted towards energy and energy projects. We 
have hundreds of millions in the core S&T budget. And we also 
have a 6.4 effort to certify synthetic fuels in our fleet, in 
all engines in our entire fleet. We have two main strategic 
goals. One is to increase the supply of alternative sources of 
fuel, synthetic fuels being one, but also batteries and power 
storage devices and that sort of thing. And the other piece of 
that strategy is to reduce demand, making our engines more 
efficient, making our aircraft drag ratio higher, and 
improving--and lighter aircraft, making those more energy 
efficient as they fly.
    Mr. Murphy of Pennsylvania. Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much. We will go back through. I 
had one general question. You know, much has been made of the 
transition towards counterinsurgency, irregular warfare, away 
from the traditional big conventional fights. I am a big 
believer in that. I think that is where we are headed. It has 
many implications certainly, some of them which were mentioned 
in your opening testimony in terms of Intelligence, 
Surveillance, and Reconnaissance (ISR), cybersecurity, 
different issues.
    Can you give us an example as you have been putting 
together your budgets over the course of the last two or three 
years and you looked at this issue, we need to do more on 
unconventional threats, what you have plussed up and what you 
have plussed down, stuff you have started doing, stuff you said 
you know what, we are going to move off of this and we are 
going to move in direction? Can you give us some concrete 
examples of how that shift has affected all of your budgets and 
your approach?
    Mr. Shaffer. I will start, but again I am going to turn to 
my colleagues, because they also have the day-to-day tactical 
view. About two years ago then-Director, Defense Research and 
Engineering (DDR&E) John Young called the S&T execs and myself 
and Dr. van Tilborg together, and we sat down and looked at, 
given the new realities of the QDR, irregular warfare, where do 
we want to invest more? As I said, that has led to about a 10 
percent shift in our investment over the last three budget 
cycles.
    Where we have given things up are first off, any inflation 
adjustments went to the irregular warfare. But we have 
decreased some of our research into platforms in the 
conventional weapons systems. In fact, I worry from time to 
time that we may have gone too far with conventional weapons 
systems, so we have stood up another deep dive team just to 
make sure we have that right. But in effect we are trading in 
some of the larger conventional type things for nonkinetic 
effects across the board.
    And I would turn it over to the gentleman on my left to 
give specific examples.
    Mr. Smith. Sure.
    Dr. Killion. Well, your comment about conventional is an 
interesting one, because in speaking to the Vice Chief of Staff 
of the Army, General Chiarelli, he will tell you that there is 
nothing like an M-1 to provide a sense of peace on a street in 
Baghdad. And so it certainly has an influence----
    Mr. Smith. If I might say about that, just quickly, you 
know, there are a lot of, you know, old traditional 
technologies that could in fact be absolutely critical to a 
counterinsurgency approach. So I understand that. It is not so 
much about is it snazzy and new versus old and tired. It is a 
matter of where do you need to spend the money to actually 
fulfill this mission.
    Dr. Killion. And actually, if you look at how our budget 
has shifted over the last decade, I would tell you 
significantly more in force protection, which is critical in 
those environments, particularly for tactical vehicles. Things 
like the MRAP and so on, where we have invested to provide 
better protection to our troops than we traditionally have. And 
in Command, Control, Communications, Computers, Intelligence, 
Surveillance and Reconnaissance (C4ISR), so we are monitoring 
what is going on in those environments. New investments in 
areas like network science and neuroscience, where we are 
really developing basic research that enables us to do better 
understanding what is going on in the environment, 
understanding the social and cultural behavior in the 
environment, preparing our troops more effectively through 
training mechanisms and through mission rehearsal capabilities 
that we didn't have before. Providing the kind of language 
translation capabilities that Dr. Leheny was talking about. 
Those are all investments that I have seen rise over the last 
decade that are really supportive of operating in those 
environments.
    Mr. Smith. Admiral.
    Admiral Carr. We already have, one of the 13 Navy focus 
areas has been irregular warfare for about 2 years. So we are 
looking very closely at that. And one of my five departments is 
dedicated to this particular area as well. So already had 
significant focus there because of our linkage with the Marine 
Corps and support of them. We had been thinking in many ways in 
this direction.
    Mr. Smith. And you within your department, do you do stuff 
to support SOCOM as well? Because certainly the Navy, both in 
terms of the SEALs and the Special Boat Teams, they do a lot of 
work in this area.
    Admiral Carr. We do. It is not dedicated support. We all 
support SOCOM in our different ways, sir. Social networking is 
an important element that has increased recently. We are 
looking very closely at understanding the mechanisms there. 
Autonomy and trying to get unmanned autonomous systems forward 
that can provide that persistent surveillance and push 
decisions forward is sort of irregular warfare in reverse. And 
we have the infantry immersive trainer that helps train Marines 
for combat in Iraq and in those unusual scenarios, which has 
been very successful. In fact, we are looking to expand another 
one of those.
    Mr. Smith. The danger of the five-minute question period 
when you have five witnesses is that it always takes more than 
five minutes. We have votes come up here quickly. I want to 
make sure that I give others a chance here. So I will let Mr. 
Miller take another round.
    Mr. Miller. Thank you, Mr. Chairman. Three votes coming up. 
I have some more questions I would like submitted for the 
record, and I will yield my time to Mr. Conaway.
    Mr. Conaway. Thank you. Playing back on the energy theme, 
Dr. Killion, you mentioned, and maybe the Admiral did as well, 
that you are working to reduce the footprint on the bases and 
in forts and other places. It seems to me that commercial 
research is being done around the world to try to actively get 
that done. So to the extent that we are spending money on that, 
we are telling the rest of the world that we have got every 
other research program fully funded, that we don't need to 
spend those dollars there?
    Dr. Killion. Let me be clear about that when I talked about 
that. A lot of the work at the bases is actually not funded in 
S&T per se. It is taking advantage of that commercial 
technology and applying it in an installation environment and 
looking at how that can benefit us.
    Mr. Conaway. That is fine. Okay. One of the strategic risks 
of energy is supply. And while crude oil is a nasty word in 
some parts of the world, in Texas it is not. Reservoirs 
typically have, after the initial production, secondary sweeps, 
tertiary productions with carbon dioxide. It is about 50 
percent of the reserves left in place. We have got extensive 
oil shale reserves in this country and extensive oil sands in 
Canada, as well as coal. Are you guys doing any research that 
would say how do we exploit those given resources that are 
under our control to be able to use them while we develop 
whatever that algae-based jet fuel that is going to fly our 
jets in the 23rd century will do? Are you guys doing any basic 
research on how do you get additional oil out of that rock in 
Pennsylvania and in Texas, where half of it is still in place?
    Mr. Shaffer. Sir, we are not doing any research into how to 
get more of the oil out, but we are working with the Department 
of Energy to understand where they are going and how they are 
making progress. The more important question for the Department 
of Defense is what the Air Force has done, is certifying our 
engines with alternative fuels, fuels derived from other 
sources, because each fuel has a slightly different makeup. And 
you have to make sure that all the seals and the pistons and 
the rings and the moving parts work okay. So what the Air Force 
has done to me that is quite remarkable is certify their jet 
engines and their aircraft using synthetic fuels.
    Mr. Conaway. Synthetic based from what, coal?
    Mr. Jaggers. In a number of areas coal. This actually is 
what Mr. Shaffer is talking about is the Fischer-Tropsch 
process. And it is really----
    Mr. Conaway. Still fossil fuel-based.
    Mr. Jaggers. It is a blend, a 50-50 blend of----
    Mr. Conaway. And the section 526 restrictions don't allow 
you to purchase that fuel once your--the oil sand fuel that 
would come from Canada, you can't buy it, can you?
    Mr. Jaggers. And we are trying to characterize that right 
now. We know we have the fleet certified on the 50-50 blend 
Fischer-Tropsch. The environmental footprint sources for this 
particular 50-50 blend is all being evaluated at this time.
    Mr. Conaway. But you couldn't buy it if it was done, could 
you?
    Mr. Jaggers. We could buy it overseas, but you can't buy it 
in the Continental United States (CONUS), yes.
    Mr. Shaffer. Section 526 does present some restrictions on 
what we can do.
    Mr. Conaway. Okay. I yield back, Mr. Chairman. Thank you.
    Mr. Smith. Thank you, Mr. Conaway. Does anybody else have 
any follow-up? Gentlemen?
    Mr. Murphy of Pennsylvania. I have a quick one.
    Mr. Smith. We have a few minutes. It is all yours. Mr. 
Murphy.
    Mr. Murphy of Pennsylvania. Gentleman, in my district I 
represent the Eighth District of Pennsylvania, which is Bucks 
County, northeast Philadelphia, and a small slice of Montgomery 
County. We have several large landfills. And we are already 
seeing great success in our waste-to-energy conversion 
projects, producing enough energy to power 70,000 homes in my 
region. Waste-to-energy conversion could be particularly 
important for military bases, especially in deployed settings 
and war zones. And not only is waste disposal a logistical 
hurdle at many of these locations, but the use of generators 
and supply lines for the fuels they require is one more target 
for the enemy to attack.
    Does the Department of Defense have any waste-to-energy 
research and development funding in the fiscal year 2010 
budget? And you know, if any of you or all are interested, I 
would love to bring you up to Bucks County and give you a tour 
of it, because we are very proud of what we do.
    Mr. Shaffer. Sir, we will send one of my team up to Bucks 
County and take a look at your company's capabilities. I don't 
know if there is any specific money within the fiscal year 2010 
budget for waste-to-energy. I do know that in the American 
Reinvestment and Recovery Act, the Energy Security Task Force 
coordinated the $300 million worth of R&D across the 
Department. Embedded in that is I want to say it was 7.5 
million, and if that is not right we will get back to you, but 
$7.5 million to advance--it is called tactical waste or 
garbage-to-oil or something like that--advance that capability.
    That investment is through Defense Logistics Agency. But it 
follows an investment that we made last year through the Power 
Surety Task Force, which operates out of Fort Belvoir and the 
Army, where we actually deployed two of these tactical systems 
forward to Iraq. They are not robust enough yet. They didn't 
have the waste stream that we want, the efficiency, but yet we 
do have research. And if your folks have something to bring to 
the table, that would be huge.
    Mr. Jaggers. Sir, and I don't know what the total amount 
is, and I think Mr. Shaffer is going to get that for you, but 
$6 million for sure is in the Air Force portion of the 
stimulus. And that is going to an anaerobic bioreactor that 
basically does that, converts the landfill into energy sources. 
And the broad area announcement, the solicitation for ideas and 
proposals is going out very soon, it hasn't gone out already. 
So we will be looking for some proposals from Pennsylvania.
    Mr. Murphy of Pennsylvania. Great. Thank you, gentlemen. 
Mr. Chairman, I yield back the remainder of my time.
    Mr. Smith. I just have one more area before we adjourn. You 
have done some work, as was mentioned, on human terrain teams, 
cultural development, sort of understanding the enemy, if you 
will, or actually that is not so true, understanding the areas 
where we are working counterinsurgency. And then there are also 
communications issues around that, sort of develop the message 
and then deliver it.
    This is a major issue in Afghanistan and in Pakistan right 
now, that we are losing the Public Relations (PR) war. I know 
some efforts have been implemented here recently. I know 
Ambassador Holbrooke is very focused on this issue. But can you 
sort of pull this together for me in terms of how closely you 
work with the various different other agencies and different 
groups, whether it is, you know, United States Central Command 
(CENTCOM), Ambassador Holbrooke's people in terms of how you 
are providing, first of all, the cultural training and 
development in that area, and then on the messaging piece, 
looking at technologies. I know there has been a lot of 
technology to help us better use bandwidth, which has a lot of 
different implications, but in particular making sure that our 
troops have the communications equipment.
    For instance, in Afghanistan, frankly, that is shortwave 
radios, as I understand it. Most folks there can't read. And 
that is where they get most of their information. And that is 
where the Taliban, you know, they are on the radio even before 
the incident happens putting out a line of propaganda.
    How have you pulled all of those things together and who 
are you coordinating with on that?
    Mr. Shaffer. Yes, sir, I will start this, but again I know 
that all of my colleagues have some work in the area. I don't 
think that you have seen, so we will make sure, I hope--well, I 
wish you would have seen, but in April we sent up a very 
detailed report on the Department of Defense efforts in 
strategic communications.
    Mr. Smith. I have not seen that. I will track that down.
    Mr. Shaffer. We will get that to the staff and get that to 
you.
    Mr. Smith. Okay.
    Mr. Shaffer. But that effort was pulled together by an 
organization in DDR&E called Rapid Reaction Technology Office. 
RRTO works with all the services, but more importantly works 
with the intelligence agencies, works with the United States 
Agency for International Development (USAID), works with 
Department of State, works with the combatant commanders to 
focus our S&T efforts to see how we can best make a difference 
in strategic communication. And it really was a whole, 
basically a beginning-to-end look of how do we shape the 
message, how do we get the message out there, how do we measure 
the impact? And it is an S&T focus area, and an area of 
incredible importance to CENTCOM.
    Mr. Smith. Were you satisfied that that work is being 
implemented, that the people in the field who are going to use 
it are following up and making the best use of what you have 
developed?
    Mr. Shaffer. I can't look you in the eye and tell you that 
the answer to that is yes, sir. What I know is there is a huge 
demand signal from CENTCOM and the commanders in the field. I 
can't tell you they are all using it correctly. But part of the 
package and part of the S&T effort is training and making sure 
that our troops understand how to use strategic communication. 
We are all growing in this together.
    Mr. Smith. Okay. Anybody else have a comment on this area?
    Mr. McIntyre. If I can just ask a quick question?
    Mr. Smith. Sure.
    Mr. McIntyre. Just a clarification, pages one and two of 
the report, thank you, Mr. Chairman, next to the last paragraph 
it says on page one, another unique feature of DARPA is that 
the agency has very limited overhead and no laboratories or 
facilities. Yet on page two it then talks about, in addition to 
the technical offices, DARPA has staff offices, which includes 
facilities, information resources and security. So I would like 
someone to clarify whether you have offices and facilities or 
not, since we have two contradictory statements. And if so, 
where they are located?
    Dr. Leheny. It would be helpful, which report are you 
reading from, sir?
    Mr. McIntyre. The strategic plan.
    Mr. Jaggers. The one that DARPA passed out.
    Mr. McIntyre. It is your publication, sir.
    Dr. Leheny. Let me just find the language so that I don't 
answer the wrong question. On page two you say--I think what we 
are trying to do is point out the fact that we don't have 
laboratories or facilities associated with actually conducting 
research. Obviously, we do have a building in which our program 
managers reside. And within that building we have space set 
aside that is secure.
    Mr. Smith. But you contract out the research.
    Dr. Leheny. We contract out--about 97 percent of our budget 
is contracted out. And I believe that you may find described in 
this report.
    Mr. McIntyre. Are you permitted to say where your office 
is?
    Dr. Leheny. Oh, sure. We are over in Arlington, just across 
from the Virginia Square Metro Center.
    Mr. McIntyre. Okay. So your reference to having no 
facilities, you are talking about facilities of your own to do 
the research.
    Dr. Leheny. We may need to correct the way we describe what 
we do.
    Mr. McIntyre. Okay.
    Mr. Smith. They don't just meet at Starbucks every morning. 
Who knows? We will take that contracting out to its logical 
extension.
    Mr. McIntyre. Thank you. Thank you, Mr. Chairman.
    Mr. Smith. Thank you all very much. Thank you for your 
work. Look forward to working with you on the markup this year, 
and as we go forward. We are adjourned.
    [Whereupon, at 12:00 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                              May 20, 2009

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 20, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 57053.001
    
    [GRAPHIC] [TIFF OMITTED] 57053.002
    
    [GRAPHIC] [TIFF OMITTED] 57053.003
    
    [GRAPHIC] [TIFF OMITTED] 57053.004
    
    [GRAPHIC] [TIFF OMITTED] 57053.005
    
    [GRAPHIC] [TIFF OMITTED] 57053.006
    
    [GRAPHIC] [TIFF OMITTED] 57053.007
    
    [GRAPHIC] [TIFF OMITTED] 57053.008
    
    [GRAPHIC] [TIFF OMITTED] 57053.009
    
    [GRAPHIC] [TIFF OMITTED] 57053.010
    
    [GRAPHIC] [TIFF OMITTED] 57053.011
    
    [GRAPHIC] [TIFF OMITTED] 57053.012
    
    [GRAPHIC] [TIFF OMITTED] 57053.013
    
    [GRAPHIC] [TIFF OMITTED] 57053.014
    
    [GRAPHIC] [TIFF OMITTED] 57053.015
    
    [GRAPHIC] [TIFF OMITTED] 57053.016
    
    [GRAPHIC] [TIFF OMITTED] 57053.017
    
    [GRAPHIC] [TIFF OMITTED] 57053.018
    
    [GRAPHIC] [TIFF OMITTED] 57053.019
    
    [GRAPHIC] [TIFF OMITTED] 57053.020
    
    [GRAPHIC] [TIFF OMITTED] 57053.021
    
    [GRAPHIC] [TIFF OMITTED] 57053.022
    
    [GRAPHIC] [TIFF OMITTED] 57053.023
    
    [GRAPHIC] [TIFF OMITTED] 57053.024
    
    [GRAPHIC] [TIFF OMITTED] 57053.025
    
    [GRAPHIC] [TIFF OMITTED] 57053.026
    
    [GRAPHIC] [TIFF OMITTED] 57053.027
    
    [GRAPHIC] [TIFF OMITTED] 57053.028
    
    [GRAPHIC] [TIFF OMITTED] 57053.029
    
    [GRAPHIC] [TIFF OMITTED] 57053.030
    
    [GRAPHIC] [TIFF OMITTED] 57053.031
    
    [GRAPHIC] [TIFF OMITTED] 57053.032
    
    [GRAPHIC] [TIFF OMITTED] 57053.033
    
    [GRAPHIC] [TIFF OMITTED] 57053.034
    
    [GRAPHIC] [TIFF OMITTED] 57053.035
    
    [GRAPHIC] [TIFF OMITTED] 57053.036
    
    [GRAPHIC] [TIFF OMITTED] 57053.037
    
    [GRAPHIC] [TIFF OMITTED] 57053.038
    
    [GRAPHIC] [TIFF OMITTED] 57053.039
    
    [GRAPHIC] [TIFF OMITTED] 57053.040
    
    [GRAPHIC] [TIFF OMITTED] 57053.041
    
    [GRAPHIC] [TIFF OMITTED] 57053.042
    
    [GRAPHIC] [TIFF OMITTED] 57053.043
    
    [GRAPHIC] [TIFF OMITTED] 57053.044
    
    [GRAPHIC] [TIFF OMITTED] 57053.045
    
    [GRAPHIC] [TIFF OMITTED] 57053.046
    
    [GRAPHIC] [TIFF OMITTED] 57053.047
    
    [GRAPHIC] [TIFF OMITTED] 57053.048
    
    [GRAPHIC] [TIFF OMITTED] 57053.049
    
    [GRAPHIC] [TIFF OMITTED] 57053.050
    
    [GRAPHIC] [TIFF OMITTED] 57053.051
    
    [GRAPHIC] [TIFF OMITTED] 57053.052
    
    [GRAPHIC] [TIFF OMITTED] 57053.053
    
    [GRAPHIC] [TIFF OMITTED] 57053.054
    
    [GRAPHIC] [TIFF OMITTED] 57053.055
    
    [GRAPHIC] [TIFF OMITTED] 57053.056
    
    [GRAPHIC] [TIFF OMITTED] 57053.057
    
    [GRAPHIC] [TIFF OMITTED] 57053.058
    
    [GRAPHIC] [TIFF OMITTED] 57053.059
    
    [GRAPHIC] [TIFF OMITTED] 57053.060
    
    [GRAPHIC] [TIFF OMITTED] 57053.061
    
    [GRAPHIC] [TIFF OMITTED] 57053.062
    
    [GRAPHIC] [TIFF OMITTED] 57053.063
    
    [GRAPHIC] [TIFF OMITTED] 57053.064
    
    [GRAPHIC] [TIFF OMITTED] 57053.065
    
    [GRAPHIC] [TIFF OMITTED] 57053.066
    
    [GRAPHIC] [TIFF OMITTED] 57053.067
    
    [GRAPHIC] [TIFF OMITTED] 57053.068
    
    [GRAPHIC] [TIFF OMITTED] 57053.069
    
    [GRAPHIC] [TIFF OMITTED] 57053.070
    
    [GRAPHIC] [TIFF OMITTED] 57053.071
    
    [GRAPHIC] [TIFF OMITTED] 57053.072
    
    [GRAPHIC] [TIFF OMITTED] 57053.073
    
    [GRAPHIC] [TIFF OMITTED] 57053.074
    
    [GRAPHIC] [TIFF OMITTED] 57053.075
    
    [GRAPHIC] [TIFF OMITTED] 57053.076
    
    [GRAPHIC] [TIFF OMITTED] 57053.077
    
    [GRAPHIC] [TIFF OMITTED] 57053.078
    
    [GRAPHIC] [TIFF OMITTED] 57053.079
    
    [GRAPHIC] [TIFF OMITTED] 57053.080
    
    [GRAPHIC] [TIFF OMITTED] 57053.081
    
    [GRAPHIC] [TIFF OMITTED] 57053.082
    
    [GRAPHIC] [TIFF OMITTED] 57053.083
    
    [GRAPHIC] [TIFF OMITTED] 57053.084
    
    [GRAPHIC] [TIFF OMITTED] 57053.085
    
    [GRAPHIC] [TIFF OMITTED] 57053.086
    
    [GRAPHIC] [TIFF OMITTED] 57053.087
    
    [GRAPHIC] [TIFF OMITTED] 57053.088
    
    [GRAPHIC] [TIFF OMITTED] 57053.089
    
    [GRAPHIC] [TIFF OMITTED] 57053.090
    
    [GRAPHIC] [TIFF OMITTED] 57053.091
    
    [GRAPHIC] [TIFF OMITTED] 57053.092
    
    [GRAPHIC] [TIFF OMITTED] 57053.093
    
    [GRAPHIC] [TIFF OMITTED] 57053.094
    
    [GRAPHIC] [TIFF OMITTED] 57053.095
    
    [GRAPHIC] [TIFF OMITTED] 57053.096
    
    [GRAPHIC] [TIFF OMITTED] 57053.097
    
    [GRAPHIC] [TIFF OMITTED] 57053.098
    
    [GRAPHIC] [TIFF OMITTED] 57053.099
    
    [GRAPHIC] [TIFF OMITTED] 57053.100
    
    [GRAPHIC] [TIFF OMITTED] 57053.101
    
    [GRAPHIC] [TIFF OMITTED] 57053.102
    
    [GRAPHIC] [TIFF OMITTED] 57053.103
    
    [GRAPHIC] [TIFF OMITTED] 57053.104
    
    [GRAPHIC] [TIFF OMITTED] 57053.105
    
    [GRAPHIC] [TIFF OMITTED] 57053.106
    
    [GRAPHIC] [TIFF OMITTED] 57053.107
    
    [GRAPHIC] [TIFF OMITTED] 57053.108
    
    [GRAPHIC] [TIFF OMITTED] 57053.109
    
    [GRAPHIC] [TIFF OMITTED] 57053.110
    
    [GRAPHIC] [TIFF OMITTED] 57053.111
    
    [GRAPHIC] [TIFF OMITTED] 57053.112
    
                                  <all>

</pre></body></html>
